<html>
<title> - IMPROVING FAMILY STABILITY FOR THE WELL-BEING OF AMERICAN CHILDREN</title>
<body><pre>[Senate Hearing 116-232]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-232

   IMPROVING FAMILY STABILITY FOR THE WELL-BEING OF AMERICAN CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2020

                               __________

          Printed for the use of the Joint Economic Committee
          
          
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]          


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-561 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
        
        
        
                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Mike Lee, Utah, Chairman             Donald Beyer, Jr., Virginia, Vice 
Tom Cotton, Arkansas                     Chairman
Rob Portman, Ohio                    Carolyn Maloney, New York
Bill Cassidy, M.D., Louisiana        Denny Heck, Washington
Ted Cruz, Texas                      David Trone, Maryland
Kelly Loeffler, Georgia              Joyce Beatty, Ohio
Martin Heinrich, New Mexico          Lois Frankel, Florida
Amy Klobuchar, Minnesota             David Schweikert, Arizona
Gary C. Peters, Michigan             Darin LaHood, Illinois
Margaret Wood Hassan, New Hampshire  Kenny Marchant, Texas
                                     Jaime Herrera Beutler, Washington

                Scott Winship, Ph.D., Executive Director
                 Harry Gural, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Mike Lee, Chairman, a U.S. Senator from Utah................     1
Hon. Donald Beyer Jr., Vice Chair, a U.S. Representative from 
  Virginia.......................................................     3

                               Witnesses

Dr. W. Bradford Wilcox, Director, National Marriage Project, and 
  Professor of Sociology, University of Virginia, 
  Charlottesville, VA............................................     6
Ms. Kay Hymowitz, William E. Simon Fellow, Manhattan Institute 
  Contributing Editor, City Journal, New York, NY................     7
Dr. Betsey Stevenson, Professor of Economics and Public Policy, 
  University of Michigan, Ann Arbor, MI..........................    10
Dr. Rashawn Ray, David M. Rubenstein Fellow in Governance 
  Studies, The Brookings Institution, Washington, DC.............    12

                       Submissions for the Record

Prepared statement of Hon. Mike Lee, Chairman, a U.S. Senator 
  from Utah......................................................    40
Prepared statement of Donald Beyer Jr., Vice Chair, a U.S. 
  Representative from Virginia...................................    40
Prepared statement of Dr. W. Bradford Wilcox, Director, National 
  Marriage Project, and Professor of Sociology, University of 
  Virginia, Charlottesville, VA..................................    43
Prepared statement of Ms. Kay Hymowitz, William E. Simon Fellow, 
  Manhattan Institute Contributing Editor, City Journal, New 
  York, NY.......................................................    54
Prepared statement of Dr. Betsey Stevenson, Professor of 
  Economics and Public Policy, University of Michigan, Ann Arbor, 
  MI.............................................................    60
Prepared statement of Dr. Rashawn Ray, David M. Rubenstein Fellow 
  in Governance Studies, The Brookings Institution, Washington, 
  DC.............................................................    73

 
   IMPROVING FAMILY STABILITY FOR THE WELL-BEING OF AMERICAN CHILDREN

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2020

                    United States Congress,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m., in 
Room 106, Hart Senate Office Building, Hon. Mike Lee, Chairman, 
presiding.
    Representatives present: Beyer, Schweikert, and Herrera 
Beutler.
    Senators present: Lee.
    Staff present: Robert Bellafiore, Carly Eckstrom, Sol 
Espinoza, Harry Gural, Colleen Healy, Beila Leboeuf, Rachel 
Sheffield, Kyle Treasure, Emily Volk, Scott Winship.

 OPENING STATEMENT OF HON. MIKE LEE, CHAIRMAN, A U.S. SENATOR 
                           FROM UTAH

    Chairman Lee. Good afternoon. Thank you for joining us 
today for this hearing of the Joint Economic Committee. Today's 
hearing is going to focus on one of the most important topics 
that we could ever cover, and that relates to the most 
fundamental unit of society, which is the family.
    As most members of this Committee are certainly aware, the 
American family is in a precarious state. Although the vast 
majority of Americans still desire to marry, the marriage rate 
has declined. And it has been declining for decades, and stable 
family life has disappeared for millions and millions of 
American children.
    The trends in family life in America are a little 
concerning. Whereas just 5 percent of children were born to 
unmarried mothers in 1960, 40 percent of children are born to 
unmarried mothers today. Meanwhile, 30 percent of children 
today live without one or both parents, twice the proportion of 
children that lived without one or both parents 50 years ago.
    Over the past few years, the Social Capital Project within 
the Joint Economic Committee has worked to document these 
trends in American associational life, that is defined as the 
web of social relationships through which we pursue joint 
endeavors--our families, communities, workplaces, and religious 
congregations.
    The Project recognizes the family as a crucial source of 
these relationships, which is why our policy agenda aims to 
make it more affordable to raise a family, and to increase the 
number of children raised in happily married families.
    While the Project has often emphasized the social value 
that stable family life provides, the declines in family 
stability have economic, physical, and emotional consequences 
as well that are very significant for those affected.
    For a variety of reasons, children raised in single-parent 
families are far more likely to experience child poverty, less 
likely to graduate from high school or attend college, and less 
likely to be connected to the labor force as adults.
    In addition, children raised in single-parent families are 
less likely to have positive relationships with their parents, 
and are far more likely to experience physical, emotional, or 
sexual abuse.
    Conversely, children raised by two married parents in a 
healthy relationship are likely to be happier, healthier, and 
better prepared for life. This of course does not define every 
circumstance, and one should not deem oneself subject to one 
fate or another depending on one's family circumstances.
    Nevertheless, the statistics are informative and we should 
look to draw from them. The positive outcomes associated with 
stable home life are outcomes that Americans want for all 
children, regardless of their background and regardless of the 
home that they happen to have been born into.
    But, tragically, the decline of the family is concentrated 
among some vulnerable groups, including minorities, and lower-
income families. For example, over two-thirds of births to 
Black mothers, and over half of births to Hispanic American 
mothers, occur outside of marriage. And minority women are much 
more likely to see their marriages end in divorce.
    Meanwhile, two-thirds of births among non-college educated 
women occur outside marriage, and non-college educated adults 
are also less likely to stay married once they have gotten 
married, if they have gotten married.
    Although these trends are most stark for certain 
disadvantaged groups, they affect us all. What factors have 
driven these declines is something that we need to ask. What is 
it that has driven these declines in American family stability?
    Well, the breakdown of the family is at least partly caused 
by cultural changes that have reverberated throughout our 
society, including changing romantic norms that led to greater 
relationship ambiguity, cultural individualism that too often 
emphasizes the desires of individuals over the well-being of 
the family, and the retreat from religion which is one of the 
strongest supports of marriage and family life.
    But while cultural factors may have contributed to 
declining marriage rates over time, the Federal Government has 
also played an active role. For example, our government 
penalizes marriage through the welfare system and the tax code. 
And in some cases, through the way that the tax code and the 
welfare system happen to interact.
    Our Federal Government should not be in the business of 
punishing marriage. Instead, it should support policies that 
strengthen marriage, and thus improve the likelihood of family 
stability for children.
    State and local leaders should also seek ways to strengthen 
marriage and increase family stability. At a bare minimum, 
government should have as its object not to discourage or 
punish marriage under any circumstances.
    Some of us have been working toward that goal. Today we 
will hear from expert panelists who will speak to the state of 
the American family and discuss various policies and solutions 
for some of the current challenges facing families. I look 
forward to hearing their testimonies on this crucial topic.
    And I now recognize our new Vice Chair, Mr. Beyer, for his 
opening remarks, and congratulate him on his selection as Vice 
Chair.
    [The prepared statement of Chairman Lee appears in the 
Submissions for the Record on page 40.]

OPENING STATEMENT OF HON. DONALD BEYER JR., VICE CHAIR, A U.S. 
                  REPRESENTATIVE FROM VIRGINIA

    Vice Chairman Beyer. Thank you, Chairman Lee, very much.
    This is my first hearing as Vice Chair of the Joint 
Economic Committee. I feel very privileged to be a member of 
the Committee and have the opportunity to work on issues that 
are of real importance to most Americans. I would like to thank 
former Vice Chair Carolyn Maloney for her leadership, and I 
would really like to thank Chairman Lee for his hard work, his 
commitment, and his collegiality. I look forward to working 
with you.
    Today we are focused on family stability and the connection 
to the well-being of American children. We all share a 
commitment to the same goal: delivering the best outcome for 
children, families, and the economy. And the question is: How 
do we get there?
    I feel so fortunate listening to Chairman Lee's statistics 
about having a 33-year marriage, and 4 kids and 2 grandkids, I 
am completely committed to, and I am really lucky that they all 
still live right here in the Metropolitan Area.
    I want to start with the good news. Teen pregnancy, which 
leads to poor health and poor economic outcomes for mothers and 
children is at an all-time low. Between 1991 and 2015, the teen 
birth rate dropped by almost two-thirds, thanks at least in 
part to the Affordable Care Act. This is an issue I have worked 
on for many years. I think we can all feel good about the 
substantial progress that has been made.
    Part of the impetus for today's hearing may be that 
marriage rates have declined in the past several decades. A 
good portion of that decline is the result of economic 
challenges. If you are struggling financially, your wages have 
not gone up and you have lost your job, getting married is 
neither feasible nor practical. Perhaps less noticed is that 
divorce rates have also been falling. Since its peak in the 
1980s, the divorce rate has fallen to a 40-year low.
    Young Americans today want to get their economic footing 
before they get married. They correctly understand that they 
must get an education or training to achieve financial success. 
They want to get a firm foothold on a career and earn a degree 
of financial stability.
    Again, I have a daughter almost 28. She has been dating the 
same guy for 6 years. Their wedding date is still a year-and-a-
half away, as they try to get established and get their feet on 
the ground. But the longer they wait to get married, it is not 
because they are anti-marriage, it is because they are 
pragmatic. They are pro-success. They are adapting the current 
conditions, not wishing for a return to the past.
    And the reality is that the traditional male breadwinner 
model of the past failed to work for so many, as wages have 
stagnated and the cost of housing and college have soared 
higher and higher.
    My friends on the other side sometimes talk about the so-
called ``breakdown of family'' and ``increase in households 
headed by single mothers.'' It is true that as people delay 
marriage, there are more babies born to unmarried parents, and 
that holds across demographic groups and race. And it is true 
in the United States and elsewhere.
    What the research also shows is that children raised by 
loving adults do well. There are lots of loving and supporting 
arrangements. It is also true that fathers today spend 
significantly more time caring for their children than in 
previous generations. I know I changed many more diapers than 
my father did. In fact, three times as much as in 1965.
    On average, the households with the highest incomes are 
married with both spouses working. But not every household is 
going to look like that, and the government should be working 
to support children in all types of families, especially those 
with access to only limited financial resources.
    The real challenges facing families--whether they live in 
small rural communities, or large metro areas--are economic. 
Forty-four percent of workers earn just $18,000. And many are 
working two and three jobs. Millions of American families are 
one accident, one car breakdown, one trip to the emergency room 
away from financial crisis or ruin.
    When people are living paycheck to paycheck, when wages are 
basically where they were 40 years ago, is it any wonder that 
adults postpone marriage?
    Step number one, then, is to do more to help people build 
their financial base. Increase the minimum wage. Expand the 
Earned Income Tax Credit. Provide affordable, quality child 
care. Protect nutritional supports. Ensure workers have real 
bargaining power to negotiate wage increases, predictable 
hours, and better working conditions.
    We know that children from families who benefit from 
expanded Earned Income Tax Credit are more likely to graduate 
high school and enroll in college. And, similarly, access to 
SNAP leads to better educational and health outcomes. If we 
care about child outcomes, we should invest in programs that 
drive those outcomes higher.
    Making paid family leave a reality for women and men will 
be another important step. I am very pleased that our Congress 
recently adopted the National Defense Authorization Act which 
gave Federal workers 12 weeks paid leave to care for a newborn 
or adopted child. And I am looking forward to expanding that to 
the private sector.
    Finally, part of the challenge for families is our 
government has not kept pace with the way people are living 
their lives. For example, the share of multi-generational 
households is growing, but our policies have not changed. 
Grandparents, aunts and uncles are taking care of kids, and 
they are often doing it because the cost of child care is 
unbelievable. And they are doing a great job.
    But often they cannot access family leave or food 
assistance, or other important supports that would help. We 
need to catch up.
    I thank all the witnesses for being here today, and I look 
forward to your testimony.
    [The prepared statement of Vice Chair Beyer appears in the 
Submissions for the Record on page 40.]
    Chairman Lee. Thank you, Mr. Vice Chairman. I would now 
like to introduce our very distinguished panel of witnesses.
    First we have Dr. Brad Wilcox. Director of the National 
Marriage Project at the University of Virginia, a Visiting 
Scholar at the American Enterprise Institute, and a Senior 
Fellow at the Institute for Family Studies.
    Dr. Wilcox's research focuses on marriage, fatherhood, and 
cohabitation, specifically examining how family structure, 
civil society, and culture influence the quality and stability 
of family life. He is the author of multiple research studies 
and books. His research has been featured in numerous outlets, 
including The New York Times, The Wall Street Journal, The 
Atlantic, Slate, NPR, and NBS's Today Show.
    Welcome, Dr. Wilcox.
    Next we have Ms. Kay Hymowitz, who is the William E. Simon 
Fellow at the Manhattan Institute, and a Contributing Editor at 
City Journal.
    Ms. Hymowitz writes extensively on childhood and family 
issues, poverty, and cultural change in America. Her writing 
has appeared in The New York Times, The Washington Post, The 
Wall Street Journal, The New Republic, and numerous other 
outlets.
    Ms. Hymowitz sits on the board of The Journal's National 
Affairs and The Future of Children, and has been interviewed on 
numerous radio and TV programs.
    Welcome, Ms. Hymowitz.
    Next we have Dr. Betsey Stevenson, who is a Professor of 
Public Policy and Economics at the University of Michigan. She 
served as a member of The Council of Economic Advisers from 
2013 to 2015 where she advised President Obama on social 
policy, labor markets, and trade issues. And she served as the 
Chief Economist at the U.S. Department of Labor from 2010 to 
2011. Dr. Stevenson's research explores women's labor market 
experiences and the economic forces shaping modern families. 
She is a columnist for Bloomberg View, and her analysis of 
economic data and the economy are frequently covered in both 
print and television media.
    Welcome, Dr. Stevenson.
    And we have Dr. Rashawn Ray, who is a Rubenstein Fellow at 
the Brookings Institute, and Associate Professor of Sociology 
at the University of Maryland, College Park.
    Dr. Ray's research focuses on racial and social inequality 
with a particular focus on police-driven relations and men's 
treatment of women. Dr. Ray has published over 50 books, 
articles, and book chapters. He has written for media outlets 
such as The New York Times, Huffington Post, and NBC News, and 
has appeared on C-SPAN, MSNBC, Al Jazeera, NPR, and Fox.
    Thank you for being here today, Dr. Ray.
    We appreciate all of you joining us here today, and you are 
now recognized for your testimony. We will have you speak in 
the order that you were introduced.
    Dr. Wilcox, you are first.

    STATEMENT OF DR. W. BRADFORD WILCOX, DIRECTOR, NATIONAL 
  MARRIAGE PROJECT AND PROFESSOR OF SOCIOLOGY, UNIVERSITY OF 
                 VIRGINIA, CHARLOTTESVILLE, VA

    Dr. Wilcox. Thank you. Chairman Lee, Vice Chair Beyer, 
distinguished members of the Committee, there is good news and 
bad news to report about marriage and family life in America.
    The good news is, as Figure 1 in my testimony indicates, is 
divorce is down dramatically since 1980. What is more, non-
marital childbearing has also reversed course since the Great 
Recession. Less divorce and less non-marital childbearing equal 
more children being raised in intact married families, as 
Figure 2 shows.
    Also, this uptick has been strongest for Black children, as 
we see in Figure 3. That is kind of the good news from my 
testimony today.
    The bad news is, the Nation still remains deeply divided 
when it comes to family structure and family stability. Single 
parenthood is about twice as high for children from families 
with less education, and for Black children. This form of 
family inequality leaves many working class and poor children 
doubly disadvantaged, navigating life with less money, and an 
absent parent.
    This family inequality is rooted in shifts in our economy, 
our culture, and our public policy. We know, for instance, that 
men without college degrees have seen their spells of 
unemployment climb in recent years, undercutting their 
marriageability. Since the 1960s, American culture has de-
emphasized the values of virtues that sustain strong marriages 
in the name of a kind of expressive individualism.
    Declines in religious and secular civic engagement have 
been concentrated among working class and poor Americans, 
robbing these families of the social support they need to 
thrive and endure.
    Finally, as Joe Price at BYU and I have shown, means-tested 
programs from the Federal Government often end up penalizing 
marriage among lower-income families today, particularly 
working class families.
    This family divided America matters because the American 
Dream is in much better shape when marriage anchors the lives 
of children and the communities they grow up in. My use of the 
term ``marriage'' here is deliberate. No family arrangement 
besides marriage affords kids as much stability as does this 
institution, as Figure 4 indicates.
    Now I cannot here summarize the voluminous literature on 
family and child well-being, but suffice it to say that 
children are more likely to thrive in school, and steer clear 
of poverty when their parents are married. And Figure 5 tells 
the score on the latter point.
    Family structure also matters to our communities. 
Scholarship by Harvard economist Raj Chetty and his colleagues 
tell us that neighborhoods with more two-parent families are 
significantly more likely to foster rags-to-riches mobility for 
poor kids.
    In all these ways, the research tells us that the American 
Dream is much stronger in communities with more married 
families--communities like the ones the Chairman and the Vice 
Chair hail from.
    Unfortunately, many communities today do not have the 
family stability found in Alpine, Utah, or Old Town Alexandria. 
So what should we do to renew marriage in communities where 
family life has become more fragile?
    The first thing we should do is to end marriage penalties 
in our means-tested programs. Currently, such penalties in 
programs such as Medicaid and the ITC can reach as high as 32 
percent for a family's total income. This is unconscionable.
    Congress should eliminate these penalties by doubling 
income thresholds for programs serving low-income married 
families.
    The second thing that we should do is to strengthen career 
and technical education, recognizing that most young adults 
today will not get a four-year college degree. Our education 
system devotes far too little attention to this group. We need 
to scale up career and technical education to boost the 
earnings, the self-confidence, and the marital prospects of 
young men and young women who are not on the college track.
    A third thing we should do is to expand the Child Tax 
Credit to help families cover the expenses of rising costs of 
raising young children. And to reduce the financial stresses 
that can cause marital instability, Congress should expand the 
Child Tax Credit to $3,000 per child, and extend it to payroll 
tax liabilities or provide families with fully refundable 
credit.
    And this credit should be paid out on a monthly basis, to 
give families month-to-month support in addressing the 
financial challenges of raising a family today. To limit the 
expense, this expansion should be limited to children under 
six.
    Finally, we should be launching civic efforts to strengthen 
marriage. I would like to see a campaign organized around what 
Brookings scholars Ron Haskins and Bill Soho call ``The Success 
Sequence,'' where young adults are encouraged to pursue 
education, work, marriage, and parenthood, in that order.
    Ninety-seven percent of young adults today who have 
followed the sequence are not poor. A campaign organized around 
the sequence could meet with the same success as the recent 
national campaign to prevent teen pregnancy.
    Measures like these are necessary to bridge the divide in 
family structure and stability across the U.S., a divide we can 
all agree is both unacceptable and un-American.
    Thank you.
    [The prepared statement of Dr. Wilcox appears in the 
Submissions for the Record on page 43.]
    Chairman Lee. Thank you. Ms. Hymowitz.

    STATEMENT OF MS. KAY HYMOWITZ, WILLIAM E. SIMON FELLOW, 
  MANHATTAN INSTITUTE, CONTRIBUTING EDITOR, CITY JOURNAL, NEW 
                            YORK, NY

    Ms. Hymowitz. Chairman Lee, Vice Chair Beyer, distinguished 
members of the Committee, thank you for this opportunity to 
testify today.
    I am the William E. Simon Fellow at the Manhattan 
Institute. Much of my research over the past 23 years has been 
on the decline of marriage, its causes, its impact on children, 
and its relation to poverty and inequality.
    Today I would like to focus on what is perhaps an 
underappreciated part of this story, what some family scholars 
call ``the marriageable men problem.''
    Let me begin by describing the mass movement of American 
women into the workforce that began in the mid-20th Century. It 
launched an extraordinary social revolution and its ripple 
effects we are still trying to fully understand.
    In 1950, about one in three women were in the labor force. 
The numbers for prime age women rose dramatically over the 
following decades and peaked in 2000 at 76.7 percent. Today, 
after a moderate reversal during the Great Recession, it has 
returned to its historical high.
    Even more striking was the shift in the work patterns of 
women with children. In the past, women who did work almost 
always left the labor force when they gave birth. Today, 
working motherhood is the new normal. As of 2017, 71.3 percent 
of mothers of children under 18 were in the labor force, and 
that included 63 percent of mothers with children under 3.
    In January, the Labor Department announced that for the 
last quarter of 2019 women were a majority of those in the non-
farm payroll positions, something that could be said of no 
other country in the OECD.
    This revolution that I am describing has brought countless 
benefits to women. In order to prepare themselves for the 
workforce, they have spent more years pursuing an education. 
This has given them the chance to use the full range of their 
talents and to pursue their individual interests. It has been 
widely and accurately reported that women are now more likely 
to graduate from college than men are.
    As a result, over 40 percent of women in the labor force 
have a college degree, compared to only 36 percent of men. 
Women have also poured into graduate schools and now earn more 
masters and Ph.D. degrees than men do.
    Sixty percent of doctors under 35 are women. More than half 
of law school graduates and associates are also women. We hear 
a great deal about the injustice of our gender gap, but 
research that fully takes into account occupation, number of 
hours worked, seniority, and time away from the job find an 
unexplained gender cap of only a few percentage points.
    I would be remiss if I failed to acknowledge that there are 
still many obstacles for women. There is still that income gap, 
even if it is far smaller than generally understood. As the 
#MeToo movement reminds us on a regular basis, harassment and 
discrimination are an ongoing problem.
    Women still do more of the child care in married-couple 
homes, and for the 23 percent of homes led by a single mother 
they do all of that work.
    Despite all of these impediments, the opportunities for 
women to exercise their talents, to be financially independent, 
to leave an abusive marriage, to buy their own homes, and to 
build wealth are extraordinary and unprecedented.
    The opportunities for them to find a desirable husband or 
partner--that is, a man with whom they might want to raise 
children--turns out to be another matter. The problem is 
especially acute for our lower-skilled population and minority 
population as well. In 1960, more than 90 percent of adult 
women over 35 had married. The most common explanation for the 
decline of marriage and mother-father families at the lower end 
of the income ladder is the moribund economic fortunes of low-
skilled men.
    There is some disagreement about just how bad this is, and 
I will not elaborate on that debate here. But there is little 
question that the economic fortunes of those men relative to 
women have worsened. I see my time is running shorter than I 
thought, so let me rush through to this.
    What does all this have to do with marriage? After all, the 
traditional family model with the male breadwinner and the 
homemaker wife has been in decline for decades. Yet, still 
women want to marry men who earn more than they do. And what we 
are finding instead is many men, about 10 percent of the prime 
age workforce, dropping out of the labor market entirely. And 
they are also having a great deal of trouble in school. Can I 
continue?
    Chairman Lee. Yes, go ahead.
    Ms. Hymowitz. So what we have, then, is a mismatch between 
what women might want and the men available. It is especially 
large for minority and especially African-American women.
    A Pew Survey confirmed that never-married women place a 
high premium on finding a spouse with a steady job. Yet the 
number of never-married employed men between 25 and 34 per 100 
women plunged from 139 in 1960 to 91 in 2012, even though there 
are considerably more men than women in that age group.
    The ratio for Black men and women is considerably worse. 
There are only 51 employed young Black men for every 100 young 
Black women. The share of Blacks who have never been married 
has quadrupled over the past half century from 9 percent in 
1950 to 36 percent in 2012. With these ratios, it is not 
surprising.
    In short, despite women's extraordinary gains over the past 
decade in educational achievement, income, and occupations, 
both sexes still expect husbands to earn at least as much as 
their wives do. Women who cannot find such men, will choose not 
to marry. Judging from their behavior thus far, either they 
will become single mothers, or not have children at all. Which 
leads me to the following conclusion:
    To ensure that more children grow up in stable two-parent 
families, we have to focus our attention on young men, 
particularly less educated minority men, and I would suggest 
three areas of attention.
    First, the Nation's schools have to pay more attention to 
their boy problem. Boys are already behind the girls when they 
enter school. They read and write later than girls. And the 
gaps widen over time. Educators often find boys lose interest 
in their classes by middle school, as reading material becomes 
more challenging.
    Relatedly, boys are two times as likely to be suspended as 
girls, and 40 percent more likely to drop out of high school. 
Educators have been invested in improving the outcomes in 
science and math for girls over the past decades. They need to 
show the same commitment to addressing boys' lagging reading 
skills--testing out new approaches that might improve their 
performance.
    To cite just one potential avenue, there is intriguing 
evidence that boys benefit from more structured reading 
instructions than many schools offer today.
    The second change needed to improve boys' outcomes is 
increasing both the number and prestige of trade schools. And 
Brad Wilcox just spoke about that, so I will leave that point 
aside.
    And the third area of attention is admittedly less amenable 
to government policy but is no less crucial to addressing the 
marriageable men problem. And that is, the reaffirmation of the 
importance of fathers and male contributions to the household.
    These days, according to surveys, girls and young women 
have stronger career aspirations than men do. It sounds 
surprising at first, but think about it. Society has come to 
accept single motherhood. In fact, it is the norm in many 
disadvantaged communities.
    I would propose that this seeming social progress has had 
the unintended effect of telling boys and men that their 
contributions to family life and the household economy are of 
no great consequence. Why study, plan, show up for work on 
time, or go to work when you are sick of your boss if no one is 
depending on you and no one cares?
    Thank you for your attention.
    [The prepared statement of Ms. Hymowitz appears in the 
Submissions for the Record on page 54.]
    Chairman Lee. Dr. Stevenson.

 STATEMENT OF DR. BETSEY STEVENSON, PROFESSOR OF ECONOMICS AND 
  PUBLIC POLICY, THE GERALD R. FORD SCHOOL OF PUBLIC POLICY, 
             UNIVERSITY OF MICHIGAN, ANN ARBOR, MI

    Dr. Stevenson. Thank you [off microphone].
    Chairman Lee. Hit the button.
    Dr. Stevenson. It is my pleasure to speak with you today 
about American families. I am an Economist who has spent the 
better part of the last three decades studying American 
families and economic forces and public policies that have 
shaped them. In trying to understand not just what makes 
families thrive, but what has been the forces that have led 
families to change, and change they have.
    You have heard much about how they have changed. My written 
testimony outlines a lot of the forces, so I am not going to 
spend a lot of time on that. But I do want to give you some 
good news that is often overlooked. Which is, that at no other 
time in history have so many people over the age of 60 been 
married.
    You might say, well, here we are talking about children. 
Why should I care about a bunch of old people being married? 
But there is a part of the country where marriage is thriving. 
It is thriving at older ages, and it reflects the fact that 
marriage is still the ideal for Americans.
    Americans, unlike those in many other countries, still want 
to marry when they feel that they can succeed in their 
marriage. And what we see with these successful marriages at 
older ages is that--and what I have shown in my research, is 
that marriages succeed when people have the time and the income 
to spend in their marriages.
    And so let me talk a little bit about what has caused some 
of the changes in marriage and family life. The first thing I 
want to highlight is just the increase in life expectancy. The 
large increase in life expectancy is important to understand 
the kind of trends that Ms. Hymowitz just talked about 
regarding women is labor force participation.
    A woman today can no longer think she is going to spend the 
majority of her life taking care of children. She is going to 
live 20 years longer as an adult, and so she needs to think 
about how she is going to combine paid work with motherhood. 
That does not necessarily mean combining paid work with having 
young kids at home. She needs to figure out whether she is 
going to work while she has young kids at home at the same 
time, or try to re-enter the labor force when her kids have 
left the home.
    Unfortunately, public policy is failing to help women make 
these decisions and support them in the ways in which they need 
to combine work with motherhood, given their increased 
longevity.
    Many scholars have pointed to a bifurcation in families 
because women with more education are marrying later and having 
children even later, well into their 30s, while those with less 
education often have children prior to marrying and often still 
in their 20s.
    First let me say that, while many bemoan the lack of a 
second parent, research has shown that many of the problems 
identified among single parent families stem from insufficient 
income. The fundamental problem for children in single parent 
families stems from insufficient income and socioeconomic 
stress.
    The shift to marrying and having children at older ages, as 
was mentioned by Vice Chairman Beyer, does reflect the desire 
by many people to establish their careers and achieve financial 
stability prior to having children.
    Women's wages and careers tend to flatline once they have 
children and, as a result, women with potentially steep upward 
trajectories in their career and wages are waiting as long as 
they possibly can. Despite the fact that women are the majority 
of college educated workers and the majority of non-farm 
payroll job holders, they still face these challenges once they 
have children.
    Modern families do have a role for fathers. Fathers are 
playing a bigger role than they have ever played in American 
families. They are more likely to be actively engaged parents. 
They are increasingly playing the role of a primary care giver. 
They are deeply engaged in everyday acts of child rearing such 
as changing diapers, giving bottles, bringing children to and 
from school, and going to doctors' appointments.
    I read an article in The Journal of Pediatrics recently 
that talked about how pediatricians need to recognize the 
important role fathers play in providing health care to their 
young children, because that has not been traditionally where 
pediatricians are expecting it to come from.
    Let me stop and say what I think are the very important 
ways that you can help support American families through 
policy.
    I am going to start with the very first one, which is: If 
you want two-parent families, the first thing you need to do is 
ensure that the mother survives childbirth. And the fact that 
we have the highest rate of maternal mortality in the developed 
world, and it is continuing to rise, should be alarming to all 
of you. I have outlined some policy options, and there are more 
that I would be even happy to talk about. This should be a 
first priority.
    Providing paid family leave is really important for 
children. Research has been very clear that that bonding time 
with both mothers and fathers is best for children. And I have 
been for the past several years part of a bipartisan working 
group on paid family leave run jointly by the American 
Enterprise Institute and Brookings.
    We have come up with a bipartisan policy recommendation for 
paid leave, and I would be happy to walk through what those 
bipartisan characteristics of a Federal paid family leave 
policy would look like.
    Affordable high-quality early childhood education and child 
care are crucial for today's children. When we first introduced 
our K-12 educational system, or expanded our primary system to 
high school, we had no idea how important early learning was. 
We now know that we are sending too many kids to kindergarten 
too far behind without having adequate investment in their 
early learning.
    There is much research on the importance of early childhood 
learning. It is discussed in my written testimony and I would 
be happy to talk with you further about that.
    Also, I would just like to emphasize the importance of 
recognizing and supporting broader kinship relationships. 
Finally, to echo what has already been said by both of our 
panelists, the importance of higher wages for our lower--lowest 
earners, expanding the child tax credit to make it fully 
refundable; expanding the EITC to noncustodial parents as well 
as increasing it; raising the minimum wage. These are all 
things that would both help support children and their 
families. Thank you.
    [The prepared statement of Dr. Stevenson appears in the 
Submissions for the Record on page 60.]
    Chairman Lee. Thank you, Dr. Stevenson.
    Dr. Ray.

  STATEMENT OF DR. RASHAWN RAY, DAVID M. RUBENSTEIN FELLOW IN 
 GOVERNANCE STUDIES, THE BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. Ray. Yes, Chair Lee, Vice Chair Beyer, and 
distinguished members of the Joint Economic Committee, thank 
you for allowing me to testify today.
    You have already heard a lot of trends and stats, so I will 
not repeat those. I have some of those in my written testimony 
as well, including some very compelling graphs by one of my 
University of Maryland colleagues, Dr. Phillip Cohen, that 
shows trends in families over the past 120 years or so.
    But what I do want to talk about is some of the interesting 
trends and ways to interpret it. So similar to the issue facing 
Americans at the turn of the 20th Century, families are 
currently pooling funds together to deal with stagnant wages, 
rising housing costs, and rising health care costs.
    As of 2017, roughly 15 percent of households were composed 
of extended family members, many of whom are together out of 
necessity--not necessarily by choice. In 1960, 65 percent of 
households were composed of married parents where the father 
worked and the woman worked inside of the household as a 
caregiver and houseworker. Currently, those households 
represent about 21 percent of all households. Although research 
shows that people's attitudes have not necessarily changed 
dramatically of their ideal of a man working and a woman 
staying at home, this is not the reality for most American 
families. And we have to be very realistic about that.
    In 1968, nearly 90 percent of unwed parents were in single-
mother households. Over the past 50 years or so, this has 
actually decreased. What we are currently seeing is about 35 
percent of unmarried parents are in cohabiting households. This 
means that people are in households together, but they are not 
married. That is a very, very important trend that we need to 
pay attention to. People definitely want to be married. People 
desire to be married. And I will talk a little bit more about 
that in a second.
    As it related to the stereotype of deadbeat fathers, 
particularly for Black men, there is a recent study that is 
extremely important that shows Black men compared to men of 
other racial groups are more likely to bathe their children, 
play and read to their children, take children to activities, 
help with homework, and talk with their children about their 
day.
    When it comes to noncustodial fathers, Black men are 
actually more likely to participate in the household. I want 
you to think about what would happen if we actually had 
equitable opportunity for jobs. We would see an even bigger 
increase. And I think that racial gap that we see at times in 
participation in the household would actually continue to 
dwindle.
    I think there are some other ways to further interpret a 
family. Dr. Pamela Braboy Jackson and I, published a recent 
book called How Family Matters: The Simply Complicated 
Intersections of Race, Gender, and Work.
    We collected data with 46 Black, White, and Mexican-
American families living in middle America. We found some very, 
very interesting patterns.
    First, we found that Black Americans were more likely than 
Whites and Mexicans to include grandparents when it came to 
being part of their family. That is because they were more 
likely to actually live with grandparents and extended family 
members.
    Whites and Blacks were also more likely to mention 
siblings, and Mexicans were more likely to live in extended 
family relationships. These are not necessarily cultural family 
arrangements as much as they are survival strategies for the 
economic market.
    Second, we found that the traditional family arrangement of 
the father working and the woman staying at home was primarily 
reserved for very high-end earners. Instead we found that high-
end earners were able to play chess, if you will, if we use 
that game analogy, whereas working class and poor families were 
forced to play checkers. They were actually having decisions 
made for them. What we want are policies that allow people to 
have more choices in the sort of things that they are able to 
do.
    The final thing we found is that single parents were 
actually the savviest when it came to the families in our 
study. Unfortunately, they had limited resources to be able to 
do the things that they wanted to do. So overall we found that, 
yes, there are some positives. Families are surviving, but they 
are also floundering and we need resources to actually do 
something about that.
    I think there are three--you have heard some of these 
before. I want to repeat them.
    First, we need an actual living wage. According to a recent 
Joint Economic Committee Report, wages were nearly $3 less in 
today's dollars than in 1968. Families simply cannot live on 
that. It is simply too low. And we need to do something about 
it. Across race, we see an even wider disparity.
    Second, high-quality jobs need to be given, and we need 
family-friendly benefits. Families need earners with high-
quality jobs. Currently, we hear a narrative about low 
unemployment. The low unemployment does not necessarily mean 
much if the jobs do not allow people to put food on the table. 
And we are seeing that in particular in places where we see 
stagnant job growth--cities like Baltimore, Detroit, 
Philadelphia, St. Louis--and we have to be realistic that these 
are predominantly Black cities where we are seeing Black men in 
particular who are actually out of the labor market.
    So we really need to do something about these jobs. Working 
Americans should not necessarily have to get a payday loan when 
their kids get sick, or when their kid accidentally breaks 
their arm. But unfortunately, that is what is happening.
    If I could just take one more minute, I want to make a 
couple more points.
    First is that, based on job growth potential, Black men are 
under-represented in the best 15 occupations for men, and 
under-represented in the bottom 15 occupations for men. This is 
because jobs have a lot to do with the geographic area where 
people are. Cities that are predominantly Black are depleted 
with economic opportunities, and we really need to focus on 
that.
    The final thing I will say is related to affordable health 
care. I recently worked on a study with Black Onyx Management. 
We did this study in Kosciusko County, Indiana. If you know 
anything about that, it is considered one of the orthopedic 
capitals of the United States. It is predominantly White and 
rural.
    One of the things that I found there was extremely 
troubling. Nearly 25 percent of the parents reported leaving a 
job because of child care. And for families that made less than 
$50,000 compared to those who made over $100,000, they were 75 
percent more likely to report that paying for childcare was 
difficult.
    I want to just end with my own family story. I typically 
would not do this, but I would be remiss in this setting. I 
grew up in a single-parent household, and I have never seen my 
biological father before. I am currently married to my high 
school sweetheart, with two beautiful, very intelligent boys. 
How did I get here?
    Well part of it is my mother's lineage. My mother became 
pregnant with me while she was in the military. She got 
pregnant by a sergeant on her base. She had to make a decision. 
Was she going to have an abortion? Was she going to give me up 
for adoption to my grandparents? Or was she going to get out of 
the military and raise me?
    This was a very, very difficult decision. She decided to 
raise me. But she turned down a unique opportunity. My mother 
was admitted to West Point in the late 1970s as a Black woman. 
This is also coupled with the fact that my grandfather, a 21-
year Veteran, Purple Heart, Bronze Star recipient, was a Drill 
Sergeant.
    So now you have to come home and tell your father that you 
are going to raise a kid after you got pregnant in the 
military? Well, my mom did it. She put herself in nursing 
school, worked a full-time job, two part-time jobs. We were on 
welfare. We lived in subsidized housing. When we lived in 
Atlanta, I was part of a majority to minority bussing program. 
I got to go to a better school that had a gifted program that I 
was admitted to. I think one of the main reasons why I am 
actually here today.
    All of these programs that I am describing were not 
available to the kids in my neighborhood. They also are not 
primarily available to families today. And what we need are 
more resources and more policies to allow a woman like my 
mother, Joslyn Talley, to have a son who then gets on the 
success sequence based on policies that allow her to do the 
things she needs to do to raise her child.
    Thank you.
    [The prepared statement of Dr. Ray appears in the 
Submissions for the Record on page 73.]
    Chairman Lee. Thank you, very much. We will now begin 
rounds of questions by members. I will go first, followed by 
Vice Chair Beyer, Representative Schweikert, and then 
Representative Herrera Beutler. And we will proceed from there.
    Dr. Wilcox, I want to start with you. In your testimony you 
point out that in recent years in the United States there has 
been some positive shift with regard to family dynamics, 
indicators of family stability, including some declining 
divorce rates, and at least a slight uptick in the number of 
children being raised in intact two-parent families.
    Can you describe to us, just briefly, what these stats are 
and what factors account for them?
    Dr. Wilcox. Since 1980, the divorce rate has declined about 
30 percent, and through now and about 1970 levels, and Dr. 
Ray's colleague, Phillip Cohen, suggests we are going to see 
even more declines in the divorce rate. So that is sort of one 
indicator that speaks to your question.
    Since the Great Recession hit, we have seen a modest 
decline, a very modest decline, in the share of kids born 
outside of marriage as well. And that is probably going to 
continue apace.
    And when you put those two things together, obviously, less 
divorce, less non-marital child rearing, that means that there 
are more kids being born and raised in a stable married family. 
So we've seen from 2014 to the present, an increase in the 
share of kids in intact married families from about 61.8 
percent in 2014 to in 2019 62.6 percent. It is a modest 
increase, obviously, but if you look at kind of the longer 
trajectory, we have seen a decline for many, many, many years 
in the share of kids in intact married families. And it is nice 
to see, from my perspective, a slight uptick in the share of 
kids being raised by their own married parents.
    Chairman Lee. Thank you. Something else you said there that 
I wanted to follow up on. In your testimony you mentioned that 
upper income Americans overall tend to subscribe to a marriage-
centered ethos. And that is something they want for themselves 
and for their children and for their grandchildren.
    At the same time, though, a lot of these same Americans, 
the people on the top economic echelons, are most likely to 
reject a marriage-centered ethos. How do you explain this 
disparity? And what can you tell us about what impact that has 
on others in our culture?
    Dr. Wilcox. So my colleague, Dr. Wendi Wong and I, looked 
at a sample of California adults. It was done by YouGov a few 
months ago, and in that survey we found on the one hand that 
college-educated California adults were much more likely to 
embrace an idea of family diversity, to sort of celebrate 
family diversity, and also to say that there was no problem 
morally with women having a child on their own. That was sort 
of their public kind of orientation towards family on the one 
hand.
    But then they also said sort of how much they personally 
valued having kids in marriage. And then of course we also 
tracked whether or not they were stably married. And when it 
came to their private orientation, they actually were more 
likely to value having their own kid in marriage than their 
less educated fellow California citizens. And they were also 
much more likely to be in a stable marriage compared to the 
less educated fellow California citizens.
    So from my perspective, part of the story here--and of 
course there are lots of other things happening economically in 
California, among other places--but part of the story here is 
that our elites have publicly stepped away from embracing 
marriage, but recognize that for themselves, you know, for 
their spouse, and especially for their kids, it is typically 
the best way to do things.
    And so what I would like us to see, you know, in precincts 
like this is that we need to be more honest about acknowledging 
publicly, and communicating publicly, not in a kind of 
judgmental way but just kind of in an educational way, about 
how much marriage matters for them, for their families, but 
also for the larger community and for the larger country.
    Chairman Lee. Thank you. Ms. Hymowitz, in your testimony 
you talk about men's disconnection, and particularly 
disconnection by non-college-educated men from the labor force 
and their declining likelihood to marry, or to remain 
unmarried.
    Do you think strong labor force participation and earnings 
increases--do earnings increases tend to increase men's 
likelihood of getting married, or wanting to get married?
    Ms. Hymowitz. Well historically, yes. And the reason that I 
talked so much about the kinds of attitudes women have towards 
who they want to marry--they want to marry men with jobs--was 
to just reinforce that idea. That it is still that women want 
to work, many of them, most of them who are, but they also want 
to marry men who hopefully earn at least as much or more than 
they do. And there is significant research showing that.
    Having said that, there are indications--there is at least 
one study that I am aware that suggests that it is not just a 
matter of, at this point, of making sure men are earning 
better, more money at better jobs. It is a study of men in, I 
believe it was North Dakota, who got jobs in the fracking 
industry and started to make very decent incomes. And what they 
found in that study was that over time the birth rate went up, 
the marriage rate did not.
    So that suggests to me that it is not enough simply to talk 
about the good jobs, as important as that is.
    Chairman Lee. That said, do you suspect if marriage rates 
were higher today, do you think labor force participation rates 
among men would be higher?
    Ms. Hymowitz. Well, it is hard to know which comes first.
    Chairman Lee. Right, right.
    Ms. Hymowitz. So I would say that, given that women are--
and I think men have internalized this as well--given that 
women want to marry men who do have jobs, that is going to have 
to come first.
    Chairman Lee. Mr. Beyer.
    Vice Chairman Beyer. Mr. Chairman, thank you. And I thank 
all of you very much. It is a fascinating hearing. I really 
appreciate your testimony.
    Dr. Stevenson, you point out in your testimony that women's 
careers and wages plateau after they start having children, so 
there is an economic incentive to put this off as long a 
possible. And now we have a slight majority of jobs held by 
women. And given that they are a growing majority of college 
graduates, their role in the workforce is only expected to 
grow.
    We also have this issue, as you pointed out, that the child 
rearing part of their marriage becomes ever smaller as we live 
longer. But what we have not figured out as a society is how to 
not penalize women for having children.
    So what changes could come from the government to recognize 
this plateau phenomenon, this forced delay in child bearing?
    Dr. Stevenson. Well thank you very much for that question. 
One challenge is that it is very difficult in our labor force 
to pause your career, to get the flexibility that you may need, 
or to be able to take the leave that you may need. Researchers 
have shown that there are really quite substantial penalties 
for women who want to take, say, a year or two out of the labor 
force off when they have small kids at home. And that is 
because we exist in a society in which taking maternity leave, 
or paternity leave, is unusual. Since most workers are not 
taking much time off, they are competing against people who do 
not take time out of the labor force.
    So I think the first thing is creating a social norm that 
people are going to stay home for some amount of time, be it 
eight weeks as we recommended with the bipartisan working 
group. That was a compromise. I think the research shows that 
children do better when there is a parent at home with them for 
six months, and that could be split between mothers and 
fathers. So three months of paid leave for mothers, and fathers 
would give six months at home for a new child.
    If that was the norm, it would be easier for people to be 
able to continue to get ahead. When you are in a career, for 
instance if you are a lawyer and other people at the law firm 
are not taking the paid leave, it does not matter whether the 
paid leave is offered or not offered. You feel like you will be 
penalized in terms of being able to continue your trajectory.
    We also see that there is implicit discrimination. 
Sometimes women go back to work after having a kid. Colleagues 
try to be kind and helpful, so they do not give women 
opportunities because the colleagues do not want to get in the 
way of the mother raising her children. But the result is that 
the mother's career plateaued.
    And also one other thing, when we are thinking about 
training programs, and job placement services, we should be 
thinking about the full range of people with skills. Often our 
job placement services are really reserved for people with the 
least amount of skills. And so we just don't really have any 
services for workers trying to reenter the labor force.
    If you were a college graduate, perhaps a middle wage 
working woman who decided to take three or four years out of 
the labor force while you are raising your young children, 
there is really no support from the government to help you 
figure out how to make your way back into the labor force. And 
that is really problematic for them.
    Vice Chairman Beyer. Thank you very much.
    Dr. Ray, many have talked about the increased role that 
grandparents play in helping raise the kids. But it is not 
really supported by our Federal policies. What should 
policymakers do to recognize the role of grandparents, aunts 
and uncles in providing care for kids?
    Dr. Ray. That is a great question. I think one of the 
biggest things is there needs to be more flexibility in the way 
we think about the policies associated with children. 
Currently, most policies are directly tied to the parents. I 
mean even before this session we were talking about what does 
it mean to sign onto a birth certificate, and how that follows 
people throughout life.
    There needs to be more flexibility and more malleability in 
grandparents' ability to take on some of the resources and tax 
breaks associated with raising children. And I think those are 
some of the things--one of the big things that needs to change.
    Vice Chairman Beyer. Okay, thanks. Dr. Stevenson and Dr. 
Ray, you both made clear that Americans value and embrace 
marriage, and even put it on a pedestal, and it is not a 
question of not wanting to get married, but a question of 
whether people can afford to get married.
    Dr. Wilcox has talked about a cultural program, comparing 
it to not smoking, for example. What is the evidence that these 
programs can work, should work, that the government could weigh 
in to encourage people to get married?
    Dr. Stevenson. So, you know, I am sure you are aware that 
Congress does fund marriage promotion programs. There have been 
a number of evaluative studies of marriage promotion programs, 
including programs that involve putting advertisements on buses 
that said, you know, marriage is great. Other programs that 
fund marriage counseling.
    The evidence is simply that these programs do not work. I 
will say that parenting programs work really well, teaching 
people the skills--because that is where people simply need 
skills. The problem with marriage is not that people do not 
have the skills for marriage, or that they do not value 
marriage. It is really that they do not think they can afford 
marriage.
    If I may, one of my most highly cited research papers was 
explaining the decline in the divorce rate. So I would like to 
tie this back to answering Mr. Lee's earlier question. One of 
the reasons that we saw the divorce rate spike so high in the 
1970s was because people had started marrying at younger ages. 
And those marriages are often not very stable, for lots of 
reasons.
    People do not know what their life is going to look like at 
young ages. Their preferences are not yet very stable. And 
neuroscience now tells us they are not even fully really a 
grown up until about age 24 or 25 when your brain finishes its 
development.
    But what really happened in the 1970s was people married 
thinking that their marriage was going to look one way, and it 
looked a very different way. They married thinking the wife was 
going to stay home, and the husband was going to support her. 
And that is not how society evolved.
    And they took a look at their marriage and it did not seem 
to fit the society they were living in today. What we see now 
is people are better informed about what they are getting into 
when they get married. They know what they are looking for in a 
partner. And they are finding people that are going to be well-
suited to them, but they really are waiting until they feel 
that they can afford marriage. Because marriage is not--is no 
longer about coming together, and one person is going to 
support me, and the other one is not, and therefore we are 
going to get financial stability out of it. But, rather, you do 
not want to commit to taking on somebody else's financial 
responsibility unless you know that you for sure can support 
yourself and perhaps can be the insurance and financial support 
for another person. Think about what the marriage vows say. 
They say we are going to take care of each other. We are going 
to insure each other----
    Vice Chairman Beyer. Dr. Stevenson, if I can give Dr. 
Wilcox a chance to respond, too. Because you had made the case 
for launching specific efforts to strengthen marriage, and that 
specific efforts would certainly work in other places in our 
society.
    Dr. Wilcox. Dr. Stevenson is correct, that a lot of the 
initial reviews of Federally funded marriage and relationship 
education were not promising in many different parts of the 
country, although there was success in Oklahoma in terms of 
both the quality and stability of outcomes for the Oklahoma 
programs. And of course they had had the most experience with 
this particular approach.
    Although it is also important to note here that a newer 
review done by Alan Hawkins in 2019 finds success not just in 
Oklahoma but also in New York City on some of these marriage 
education approaches.
    But the point I am making here actually is not really about 
having programs that are trying to target lower income couples, 
as with these particular approaches, but actually thinking more 
about kind of the broader cultural message we are sending to 
the public. You know, just like we did with smoking, like we 
did with teen pregnancy, I think we need to think about ways in 
which we can get public service announcements. We can get 
Hollywood. We can get schools, and other institutions, on board 
with the message that, you know, it is helpful to sequence 
basically education, work, marriage, and parenthood in that 
order. And if more young adults kind of heard that message, I 
think they could change their pattern in that area much like 
they have changed their patterns around teen pregnancy and 
smoking.
    So that is sort of the point here. And we have seen 
evidence, too, from Brookings, for instance, that MTV show ``16 
and Pregnant,'' that was one of the kinds of things that 
happened in the pop culture that helped to sort of shift us 
away from teen pregnancies.
    So using that kind of cultural power and influence I think 
to stress the value of the sequence would be helpful in 
extending a model that we see among our own peers and their 
kids to the broader country. And, to all kinds of kids from all 
kinds of different backgrounds.
    Chairman Lee. Representative Schweikert.
    Representative Schweikert. Thank you, Mr. Chairman, and 
Vice Chairman Beyer. Thank you for asking that.
    Can I take this slightly differently, because you are all 
freaky smart and I need sort of that input. First, can you 
confirm a piece of data that I have on my desktop saying that 
the majority of millennials will never marry. It does not mean 
they are not in long-term committed relationships. But the 
majority of millennials will not marry. Has anyone else seen 
that data set?
    Dr. Wilcox.
    Dr. Wilcox. There is a recent report from the Urban 
Institute that talks about a marked decline in marriage, but it 
would go from, you know, around 90 percent in previous 
generations to about 70 percent of millennials would be 
marrying over the course of their lives. So obviously a big 
decline, but still a majority of millennials are projected by 
the Urban Institute.
    Representative Schweikert. I will send that to you, because 
I have spent some real time on its math, and I found it both 
fascinating and disturbing because it became an interesting 
conversation of: Is it the definition of marriage as we 
operate--you know, here is how you get a tax benefit, how you 
do this--or is it the long-term committed relationship. It is 
almost, forgive my ignorance, the common-law model.
    But in our office we have a fixation----
    Dr. Ray.
    Dr. Ray. I was just going to say quickly, even if it is a 
decline in marriage among millennials, that does not mean that 
when they get married that those marriages will not be more 
successful.
    Representative Schweikert. It was more just because on my 
committee, Ways and Means, so often we are parsing out things 
saying, okay, here is the benefit for having this piece of 
paper. Here are the benefits for raising the child. Even as Dr. 
Stevenson spoke about some of the benefits of an earned income 
tax credit.
    I am just trying to get my head around what my population 
looks like that these sorts of things would actually benefit 
family stability?
    Ms. Hymowitz. I just wanted to mention that the surveys 
that I have seen recently of younger people is that there is 
not a great valuing of marriage. And many of them do not see it 
as essential. They want children, but they do not necessarily 
want to marry. There is a Pugh Survey on this. And I think 
there is another one----
    Representative Schweikert. Which is why this becomes 
important to us up here. We are trying to design family 
formation policy, and then we are going to get to my real 
interest: My real question is what happens when society already 
has certain trends? Do we need to run out in front of those 
trends and make sure that we own the definitions, and the 
benefits, and those things that incentivize, or just deal with 
the reality of here are our demographics. Am I being fair?
    Ms. Hymowitz. Well I guess the question is whether there is 
a way to influence----
    Representative Schweikert. Yes. And as we know, some of the 
marriage studies gave me a moment of hope, because I looked at 
many of those before and I saw nothing that was statistically 
significant.
    Can I go back to----
    Dr. Stevenson. Can I just--I think what makes it really 
hard when we look at these studies like of millennials is that 
it is the case that people are postponing marriage to much 
greater ages. And so we are having to forecast, oh, they are 
marrying at such low rates at 28, 29, and 30, what are they 
going to do at 40, 41, and 42? And it is hard to forecast, but 
I will say that it does seem like people are very committed 
still to marriage.
    And one of the things that we are seeing----
    Representative Schweikert. But we----
    Dr. Stevenson [continuing]. The number of children people 
have has gone down, but actually so has the rate of 
childlessness. So people are pushing things off, and then they 
get like one kid, and, you know, a late marriage.
    Representative Schweikert. But that actually comes to what 
I really wanted to ask about, the fertility rates. Okay, we all 
know the United States has been below replacement rate since, 
what, 1971. Functionally, if you do the adjustments--you do not 
like that number?
    Dr. Wilcox. Since the Great Recession, certainly, yes.
    Representative Schweikert. Okay, let us go to the Great 
Recession. But it is not just us. We actually worked on a 
project in our office trying to see if there is any country--
even Hungary where like with the third child they buy you a 
house, or with a fourth child--and in a number of northern 
European countries, even a couple of Asian countries, we see 
some of the experiments, and in Taiwan. Who has finally had 
success of breaking the Holy Grail to change fertility rates? 
And we found almost nothing that is actually statistically 
significant.
    So in some ways we are having a conversation here about 
family formation and family health and family stability. 
Wonderful. On the other end, we have been trying to build 
economic models of what does the future of our economy look 
like, just even hitting population stability, plus, minus, you 
know, what a talent base for our current immigration systems 
would look like.
    It is really hard to build those models. And the thing I 
was going to ask from all of you, because from my previous 
comment, you are all freaky smart, I disagreed with some of 
your things that were written in your papers, the benefits, but 
it is what it is.
    If I came to you tomorrow and said our society is concerned 
about fertility rates. We want to encourage children. We would 
like to encourage those children within a traditional family 
structure. What works? And can you point to me anywhere in the 
world where someone has found a formula in their society that 
has worked?
    Am I wrong that, at least in the current literature, it 
just is not out there?
    Dr. Stevenson.
    Dr. Stevenson. So I think the one thing that is hard in 
looking around the world, the world is a great place to look 
for lots of examples. Sometimes we find things that work, and 
sometimes not. But we have to think is this matching our 
society.
    So what has happened in the United States is we are 
investing more as parents in our children than we ever have 
before.
    Representative Schweikert. You referred to it--I had a 
professor who used to refer to it as ``the high quality 
child.''
    Dr. Stevenson. Yes. So people are--college-educated mothers 
are working more in the market for pay, but they are also 
spending way more time with their children than they ever did 
when they were stay-at-home moms. It is amazing. I do not know 
where they are getting the hours, but moms are spending more 
time. Dads are spending more time.
    Representative Schweikert. How does that--how does that--
those are interesting data points, but how does that help 
build----
    Dr. Stevenson. Let us put this together with what our 
public policy is. We are not investing in children. The public 
policy--the government is not matching what the parents want.
    Representative Schweikert. But show me a society that 
actually--because we have some that are putting stunning 
amounts of money, and yet we have not seen a change in the 
fertility rate. And that is my honest question. And maybe it is 
that as a society we should do those things. I am actually--
this is one of those occasions where, someone is known to lean 
conservative, and maybe somewhat libertarian, I think if I can 
just find some data that shows it would be good for society.
    And can I hit Doctor----
    Dr. Stevenson. I was just going to say, what I am asking 
you to do is look for countries where the parents desire to 
invest is high, and see what works there.
    Representative Schweikert. And I will read--you know, I am 
just a voracious reader. You send me anything, I will read it.
    Dr. Ray, and then I am way over time.
    Dr. Ray. Yeah, I think one of the main things is higher 
quality jobs with higher wages. We were just talking about 
millennials. One of the biggest issues with millennials, and 
again similar to what Dr. Stevenson was saying, I sometimes do 
not put tons of weight in some of the attitudinal data when 
people are in their 20s. For example, because once they finish 
school and get a house and do all these sort of things, the 
success sequence tells people to do before they get married, 
they will get married. And I think that those marriages will be 
more successful.
    And if we want people to have more children, people need 
more money to take care of children. Taking care of children 
today is extremely, extremely expensive. When I talk to--again, 
I have two young kids. When I talk to other families, they talk 
about having an additional child, a third child, or a second 
child----
    Representative Schweikert. I----
    Dr. Ray. Hold on, let me make this point. Because they 
ultimately do not do that, because it is too much money, 
because of the investment they are making. But if they were 
able to make higher wages, it might be a cost/benefit 
analysis----
    Representative Schweikert. Dr. Ray, I was actually going to 
compliment you, because you actually did come close to the 
thing, because we were actually trying to build a model that 
said what would happen if they are going to have one child, but 
if they hit certain levels of success five years earlier, would 
that mean a second child.
    Dr. Ray. Yes.
    Representative Schweikert. And you actually sort of touched 
on that in some of your writings.
    Can I hear from Dr. Wilcox, and then I apologize for going 
way over time. He humors me because I torment him.
    [Laughter.]
    Dr. Wilcox. I just wanted to say two things quickly. One is 
that we actually are seeing this decline in fertility even in 
Scandinavian countries that have incredibly progressive 
benefits, you know, that many of our colleagues would call for. 
So I think it would be attentive to the fact that there is 
something out there that is happening that is sort of above and 
beyond just the policy thing. And maybe, you know--well, 
certainly the policy recommendations that some of our 
progressive peers have called for.
    There is some evidence of a program that has been somewhat 
successful, and it is a program of paying five hundred and 
whatever their currency is to families for each child, you 
know, a very targeted kind of child allowance. That could be 
kind of a model for us to think about here in the U.S., to sort 
of think about a child allowance that would give families 
choices about how best to spend their money on their kids to, 
you know, deal with the rising costs.
    Representative Schweikert. We have actually even looked at 
everything from a negative income tax to some stability income 
for the additional child. We are just trying to figure out what 
would help us produce a level of population stability and 
family formation.
    And, Mr. Chairman, thank you for tolerating me.
    Chairman Lee. Thank you.
    Representative Herrera Beutler.
    Representative Herrera Beutler. Thank you, Mr. Chairman. 
This has been just fascinating for me. It is funny, as I was 
looking through this, I think everybody is kind of right. And 
everybody is kind of a little wrong, which is pretty much how 
it always works, right?
    Some of the recommendations I am just excited to even get 
started on, I think recommendations from each of you. I found 
it particularly interesting, Dr. Stevenson, that you were 
talking about our maternal mortality rates. It was my piece of 
legislation that got signed into law at the end of 2018, our 
first Congressional Federal legislation in the Nation to start 
addressing the rising maternal mortality crisis. Because you 
either are a mom, or you have got a mom, so it impacts all of 
us. And for some reason in 21st century America we were not--
people do not even know when you say 47th in the developed 
world, people get shocked. And I am like this is our backyard. 
It is rural, it is urban, it is poor, it is rich. It is 
everybody.
    So we are starting to address that. I think the next piece 
there is to make sure that we have health care coverage, 
especially for moms on Medicaid, through that first year of 
life, if we are going to start measuring maternal mortality for 
that first year of life. Women with private insurance will 
hopefully keep it, right?
    But certainly Medicaid needs to continue. I think that is 
2.0 for that. I had a good conversation with Vice President 
Pence during the whole ObamaCare repeal time. And that was my 
comment to him. As someone who is very much pro-life, if we are 
going to encourage people to have children in dire 
circumstances, then we can make sure that we are stepping up 
both as the community and our policies federally.
    The other piece, I think Dr. Ray you were talking about and 
I did have some questions for you. I do think that equatability 
for--you were talking about, really, Black men in big cities, 
where are the good jobs? Like in opportunities. I did have to 
smile a little bit, because if you step out of those big 
cities, we are seeing a lot more opportunity across gender and 
race, and traditional--in fact, non--Hispanic men without high 
school degrees are some of those who are actually seeing their 
wages boosted right now in this economy. So it does make me 
think in some of those big cities, maybe it is time for a 
little balance in some of those political levers. Maybe we 
could help spread out the thriving economy we are seeing in 
other areas.
    And as someone who--I am so moved by your personal story. 
You know, I think I could have pulled myself from each of your 
examples. You know, I am 41. I just have a 9-month-old. I 
started having children late, because, I don't know, I got 
wound up in this place. My husband, who is going to hate me for 
this, is technically a millennial. He has all three of my 
children right now. So he's got the 6-year-old, the 3-year-old, 
and the 9-month-old. And I was like, ``bye, honey, I've got to 
go to a hearing.'' And he is going to handle them so much 
better than I would.
    So I had to smile about all the different ways you were 
quantifying people, because I am also Hispanic. And the first 
in my family to get a four-year college degree. And so so much 
of your story really inspired me. Actually, your mother did, 
I'm not going to lie. She probably put all of us to shame.
    But as I was listening to this, because one of the things I 
will say has helped tie me together in all this, has been both 
my faith and my parents. My parents are still married. And one 
of the things I just kept asking, if the goal here is improving 
the stability and well-being of American children, children are 
the products of their parent's marriage.
    Now for their parents, right--and I am looking at Dr. Ray 
because obviously his mother is amazing and overcame a lot 
more. So for me the question is not how do we get more people 
to get married because who wants to get married if they see a 
terrible marriage, or a terrible situation?
    That is the one thing, when I look at millennials, and I 
think finances is the first thing they will say, when you say 
why are you not having kids, or when are you going to have 
kids, and generally it is the guy who will say ``money, we 
don't have enough to pay for them yet.''
    And I think that is true. But I think the next step is, 
what is your view of marriage? And what causes someone to get 
married? Is it a healthy marriage? I was surprised--the one 
thing I was surprised by is the lack of conversation around, I 
do not know if you would say ``emotional health,'' in each of 
these situations. Because I do not want to push millennials to 
get married if they are going to get into crumby marriages and 
have bad outcomes, right?
    So what we really want is stable families. So for me the 
question is: Why do not young people value marriage? And what 
are we modeling? What are they seeing? Because I think this 
generation is actually pretty courageous to demand certain 
things, work/life balance. They are doing that, though, because 
they want to see something better. I think about this in terms 
of faith, too. If our faith does not show anything, why would 
anybody want to join the faith? I would not.
    The question to me, then, goes back to the health of the 
people who are getting married. Who am I? And why am I here? 
And that is the thing I think we have to answer before we put 
them on this success--I cannot remember how you were saying it, 
Dr. Wilcox--but the steps obviously make sense. But I just 
think, even when it comes to the economics, those are all 
symptoms. But in treating all the symptoms, how do we bring 
about the health and well-being really of the people that 
create the most intimate building block of our society, which 
is a marriage.
    I think that is where we have to start. And I would love to 
hear your thoughts. Dr. Ray, I think I would love to hear, 
because I think your mom obviously found that.
    Dr. Ray. Yeah, I mean my mom--so I will say a couple of 
quick things, and then I will say something about my mom. When 
this hearing happened and Sol Espinoza asked me to be a part of 
it, the first thing that came to my mind is what does 
``stable'' mean? What you did conceptually from a sociological 
standpoint, you expanded past the economic structural parts, 
even the cultural parts, to think about what does a healthy 
marriage mean?
    I have a very healthy marriage with my wife. One of the 
things my mom did raising me, she said two main things. She 
said, first, I am a woman. I cannot necessarily show you what 
it means to be a man, and in particular a Black man in society, 
but I can put you around other people who can. I cannot 
necessarily show you what it is like to be in a marriage right 
now, but I can put you around people who can show you what that 
looks like.
    So she helped me to model family. So I had a very healthy, 
positive view of what marriage looked like. When I ask a lot of 
my friends, if you talk to a lot of millennials, they do not 
have that, partly because their parents were getting divorced 
when they were kids and they do not want to go through that.
    I think the other thing is that from a cultural 
standpoint--and Dr. Wilcox talked about this--sometimes I kind 
of think about shows and how much they matter on MTV and that 
kind of thing, but I do think that showing people that marriage 
is good, and what a successful marriage looks like, is 
something that we should really, really do. Instead, oftentimes 
when you look at parents with young children who are working, 
they look miserable, like their life does not look great, even 
if it is. And oftentimes it is hindsight.
    And so I think part of what has to happen is, if we are 
going to talk about marriage and what a healthy marriage looks 
like, we have to reconceptualize what ``stability'' and 
``healthy'' means. And I think we have to make sure that young 
adults, and in particular young kids, elementary school kids, 
high school kids, that they are able to model and actually see 
what healthy, positive, happy couples in marriages look like.
    Because I think in American society we do not necessarily 
have that image. I think certain people like myself were able 
to be around families that my mother made me get around to see 
that, but I think for a lot of my friends they do not have 
that. So when it comes to getting married, and particularly 
having kids, why would they do that? Because life does not look 
better with that.
    So part of it is that we have to show people what that 
looks like.
    Dr. Stevenson. So I would just like to add that what we see 
is that couples, where they have similar expectations for how 
they are going to behave in marriage, how they are going to 
share the tasks of raising children, the tasks of working, who 
is going to do the vacuuming, who is going do the washing up, 
those are the marriages that succeed. And one of the reasons 
that I thought it was really important to talk about the 
increasing role that fathers are playing as really active care 
givers, like your husband, is because those are the marriages 
that are succeeding. And when we model that for kids and say: 
You know what, this modern masculinity does involve having a 
baby pouch on some of the time.
    Those are the marriages that are really thriving, and so 
trying to figure out how we can make men, particularly men who 
are not able to find the kinds of work that they thought they 
were going to be able to do, the kinds of like goods-producing 
manufacturing jobs, has increasingly become a service sector, 
how do we convince them that, you know, it is okay to work in 
the service sector and take care of your babies, and your 
masculinity is fully intact.
    Ms. Hymowitz. I am a little bit concerned that we keep 
talking about marriages, but I want to remind us once again 
that 40 percent of children, American children, are born to 
unmarried mothers. And some of those mothers will marry at some 
point, maybe to the child's father, maybe not, and that seems 
to me when we are talking about all that fathers do, and how 
much more fathers are involved, and how much more they can be 
involved, that is not going to happen without marriage in any 
reliable way.
    So, you know, I think the effect is, I think Dr. Ray had a 
very interesting chart about how much time fathers who are 
living with their children are spending with their children 
versus how much time those who are not living with their 
children, and it is a huge difference. And I do not see how 
that changes without marriage, or some kind of firm commitment.
    We do know that, you know, cohabitation seems to be 
something that is working for--in some countries. That is, more 
permanent relationship without marriage. But that does not seem 
to be the case in the United States.
    Representative Herrera Beutler. I think you are correct in 
that marriage has I think those benefits. I think my point is 
beyond just whether or not two people get married, or two 
people shack up, or two people live together. It is what 
stability are they going to create for the kid. And that 
stability, you cannot give out what you do not have. And I will 
say, in my marriage I think the reason that we do not worry 
about who is doing what, when--and he is obviously a strong 
conservative, confident man--is because of the mutual, not just 
partnership, but love and respect. And I think that is 
ultimately how we get to the more stable relationships in 
marriage, which I agree.
    Ms. Hymowitz. Yeah. There is something of a feedback loop 
that is going on here, because there are so many children 
growing up without fathers, without seeing marriage. I think 
Dr. Ray's experience is somewhat unusual. As you say, a lot of 
kids do not ever see, especially in certain communities where 
they do not know anybody who is married.
    So it is a completely lost norm in those communities. So I 
think that the question is, you are right, you have to figure 
out what it is that will allow people to get along better. I 
agree with you about that. But I think that it becomes a self-
fulfilling prophesy because when kids are growing up without 
those norms----
    Representative Herrera Beutler. It is true. It is true, but 
I would argue in some rural White areas where people are 
married and it is dysfunctional----
    Ms. Hymowitz. Absolutely. Absolutely.
    Representative Herrera Beutler [continuing]. Just as much. 
I get it. I will get you in, and then I will get my lack of 
time back.
    Chairman Lee. Thank you. We are going to start into a 
second round now. They have just called a vote in the Senate, 
so I am going to have to leave in a moment, in which case I 
will hand the gavel off to Mr. Beyer and he will then 
filibuster for the next six hours while I am voting.
    [Laughter.]
    Or, alternatively, wrap up, depending on which comes first.
    Ms. Hymowitz, I wanted to get back to you for a moment. At 
the end of paragraph three of page one of your written 
testimony, you made some observations that I wanted to learn 
more about.
    You say: We hear a great deal about the injustice of our 
gender gap, but research that takes into account occupation, 
number of hours worked, seniority, and time away from job, 
finds an unexplained gender-income gap of only a few percentage 
points.
    I wanted to ask you where that comes from, particularly in 
light of the stats that you shared earlier in that same 
paragraph where you talk about the fact that 60 percent of all 
physicians 35 and younger are women, and that women now make up 
a majority of law school students and associates, young 
lawyers. Presumably that is indicative of the fact that they 
are doing well in those professions.
    So what explains the remaining gender gap?
    Ms. Hymowitz. First of all, a lot of the comparisons we do 
are based on data that we have from the government on, let us 
say we are comparing people in similar occupations. So you will 
see a category that will say ``physicians,'' and it will 
compare men and women. But of course physicians come in many 
types. So that you could have a cardiologist, who makes a great 
deal of money, and a pediatrician who does not. And women are 
more inclined to go into specialty areas where they do not make 
as much money.
    So, yes, they are physicians, but there is a gender gap in 
the--a wage gap that is partly dependent upon the kinds of 
doctors they are. And this goes through all of the occupations, 
practically, that you can think of.
    Chairman Lee. Okay, so you might just say the same thing 
with regard to lawyers, or accountants?
    Ms. Hymowitz. Absolutely. So, you know, you are going to 
have more--look, some of this will even out at a certain point 
I think as women--there is a pipeline issue.
    Chairman Lee. Right.
    Ms. Hymowitz. But as that changes, and it will change, it 
might get better. But, you know, as Dr. Stevenson pointed out, 
women's income gets hit when they have children. And my own 
observation of--and this is just my observation--is that, yes, 
they want a little bit more time with their kids. And I do not 
see how that--why we would want to change that. We want to 
cushion them from the effects of it, but we do not want to 
change that.
    Chairman Lee. Dr. Ray, I see you wanted to respond.
    Dr. Ray. Yeah, I just want to quickly push back on that. So 
research actually shows that even within the same occupations 
that women still get paid less. I think one of the best 
examples is our profession, actually, as academics. Even within 
the same department, we see that women are paid less at the 
same rank for doing the same amount of work.
    And so, you know, definitely we can see some type of gap in 
specialty. But even within those specialties, even among 
pediatrics, we still see that men who are pediatricians 
compared to women get paid more.
    We have to be very realistic about why that gender wage gap 
exists. And I think it is something that we should really, 
really pay attention to; that it is not simply that women are 
leaving the workforce to take care of their kids, but it 
actually is a real penalty that women face.
    And the other thing, and this is Dr. Shelly Correll's 
research who is at Stanford, who has done a lot of work in this 
area at the Clayman Institute, one of the big things she finds 
is that after women have children, they actually become more 
productive. And for those of us in here who have kids, that is 
something to really think about. You might be more tired. You 
might be more stressed out. But you actually use your time 
better.
    And so I think that we have to look at some of the more 
recent research that is done. I think Shelly Correll's work, 
Steven Evan Bernard's work who is in Indiana, I think they are 
some of the scholars to really look to to show us that this 
gender gap exists across the board.
    Ms. Hymowitz. Can I just----
    Chairman Lee. Yes, go ahead.
    Ms. Hymowitz. If I can push back a little bit myself. If 
you look at Claudia Goldin's work, she--she is at Harvard and 
has done a lot of work on the gender gap over the years, and 
there is still a gap. But what she finds is that the economy is 
changed particularly at the high levels in ways that 
privileges, or leads to higher earnings for people who are 
available all the time, basically. And that tends to be more 
men than women.
    So, you know, you can look at ways to try to change those 
industries where that is the case. But for instance if you are 
in big law, you have to be available for clients. In many 
firms, you have to be available for clients----
    Chairman Lee. Yes, I have experienced that one up close and 
personal.
    Dr. Stevenson. Can I--I actually just pushed back a little 
bit. Claudia Goldin was my advisor in graduate school, and I 
know her work really well. In big law, there is a huge penalty 
if women do not want to be on call all the time.
    The same penalty was true in obstetrics. There was a belief 
that, you know, your obstetrician had to deliver your baby and 
needed to be on call 24/7. Women went into obstetrics and they 
changed that, and the way we deliver babies has changed, and 
there is no longer a penalty for not being around all the time.
    Claudia has often said, why is it that babies are easier to 
pass off than court cases? That is something she has never 
understood. So we do not understand why some occupations 
continue to have an enormous penalty like finance for having a 
short, brief time out of the labor force. And I do not think 
that it is easy to say that, you know, women are taking time 
out. Of course if women want flexibility we should give it to 
them, and we should help all occupations realize that it is a 
mistake to lose the talent by having unreasonable penalties for 
people who want a little bit of flexibility.
    Chairman Lee. I will say, having accidentally turned into a 
witness a moment ago, saying that I have experienced that one, 
I will say that at least with every law firm I have ever had 
any association with, which I will concede are big law firms, 
law firms do tend to go out of their way to offset that. 
Generally speaking, a premium is placed in the profession on 
availability, particularly a big firm, but they also go out of 
their way to try to offset that by having special committees 
and procedures that are designed specifically to attract, 
recruit, retain, and promote women. And as far as I can tell, 
they have done a pretty good job of that.
    I am unfortunately going to have to go, so I am going to 
hand the gavel over to Vice Chair Beyer. But I want to thank 
all of you for being here. Your testimony has been outstanding, 
and I have really enjoyed this hearing a lot. Thank you.
    Vice Chairman Beyer. I am going to come a little out of 
left field, Dr. Ray. I am one of six, the father of four. You 
have two children. Why are kids so darned expensive? I seem to 
recall my mother turning us out into the backyard, and every 
one of us talked about how expensive children are right now.
    Dr. Ray. Yeah, I think one of the biggest things with the 
expenses of children--and I am sure others up here have 
thoughts, as well--but I will kind of combine the research with 
my own personal experience, having an 8- and a 9-year-old right 
now, is that a lot of the resources--and this gets back to my 
own personal story--a lot of the resources that were available 
to my mother when she was raising me are not available today.
    So what families are doing, they are outsourcing those 
resources. And then it is a scaling up of supposedly sort of 
soft skills and certain types of experiences that kids need 
today. So what that means is that parents are spending a lot of 
money for other sorts of things that, honestly, school and 
local neighborhoods used to do. I mean when we look at the 
differences in school funding compared to what the Federal 
Government used to provide in the past is now funded at the 
local level.
    So like this neighborhood that I talked about growing up in 
Atlanta, the local property tax structure simply could not even 
afford to keep the lights on, could not even afford to have air 
conditioning at the schools in August in Atlanta. Anybody who 
has been in Atlanta in August knows it is really, really hot.
    So then all of a sudden you do not get any of the 
additional perks that go along with supposedly what it means to 
raise kids in a community. So parents are now outsourcing all 
of these things. I know a lot of parents who send their 
children to math and reading programs because they feel that 
the schools that they go to are inadequate, it is not even that 
they want their kids to get ahead, they simply want their kid 
to be able to keep up, to simply stay on par.
    And so I think as we look at what is happening with parents 
today, and families raising young children, it is that the 
costs associated with activities, with even educational 
activities--I mean we have not even got to thinking about going 
on a nice trip, which for a lot of families simply does not 
happen. I think we have to be very realistic about these sort 
of things. School uniforms. Even in a lot of public schools, 
parents have to get school uniforms. If you know anything about 
kids that are my kids' ages, as you do, I mean we have to get a 
uniform basically every week for one of our boys. This costs a 
significant amount of money. And if you are a family that is 
strapped, going to pay for a $20 or $30 shirt every couple of 
weeks, they simply cannot afford it.
    And these are often times at public schools where 
supposedly they are not supposed to be able to have to pay for 
these sort of things, the taxing that they are providing to the 
local neighborhoods are supposed to do it.
    Vice Chairman Beyer. Thank you. Dr. Stevenson, Ms. Hymowitz 
talked about the significant percentage of children in single-
family homes, or born to unmarried mothers. What happened to 
the stigma about that? Again, growing up the Florence 
Crittenton Home for Unwed Mothers was across the street from my 
elementary school. There are no more Florence Crittenton Homes 
for Unwed Mothers.
    Dr. Stevenson. Oh, that is I think a long social change. 
But, you know, I am--sorry, I am trying to think about where to 
start. I was actually just talking with somebody about this the 
other day.
    It used to be the case that we would stamp ``bastard'' on 
the birth certificate of a child born out of wedlock. And in 
many states, in fact in Louisiana, the State did not recognize 
the legal relationship between the mother and the children that 
were born out of wedlock. And that was overturned by the 
Supreme Court in 1968 that said the sort of Draconian attitude 
toward single mothers is too much. It is too hard on children. 
So I think that there has been--you know, there has been a big 
cultural evolution since then which has allowed single mothers 
to thrive.
    But I think more importantly, coming back to this point 
about is it a good marriage or a bad marriage, has allowed 
people to make a choice about raising a child on their own, or 
being in an unsuccessful marriage.
    And there is a large literature on what happens when we try 
to force people together who are in an unhappy marriage, and it 
is not good for children. I think we can all agree that what is 
good for children is for children to be raised by as many 
loving people as possible. And if that is two parents, that is 
terrific. Two loving parents who get along and are not fighting 
with each other is really great for kids. That is just not 
always possible. And it has been really important for us to 
recognize.
    I think if we go back to that Supreme Court case in 1968, 
one of the things that really struck me was saying, you know, 
you might not like the decisions that the parent is making, but 
do not have the child bear the consequence.
    And that is really important. We need to support all 
children.
    Vice Chairman Beyer. That is a great segue, because one of 
the things is that sort of in all of your testimonies, both 
spoken and written ones, that so much of the challenge has to 
do with low economic performance. Either men that are 
unemployable, or families that have to postpone marriage 
because they do not have the income.
    Dr. Wilcox, you expressed skepticism about some of the 
progressive plans of your colleagues. Where does your 
skepticism come from?
    Dr. Wilcox. I want to be careful here. I am not saying that 
some of these programs and policies are not necessarily helpful 
to families, but we have to sort of recognize that they are not 
a panacea, and that just addressing the economic dimensions of 
these challenges today will not necessarily get us to the place 
where we would like to be is sort of the point that I would 
make about this.
    And I think it is important in terms of the question that 
you just asked Dr. Stevenson, that we sort of understand that 
we are not going back to the 1950s into the home that just 
across from your home growing up. But I would like to go 
forward in the 21st century to a world where kids who are born 
to lower income families, and kids who are born to African-
American families, and kids who are born to less educated 
families, have just the same shot as being raised by two loving 
married parents as kids born to more educated, more affluent, 
you know, White and Asian families.
    And so I think to get to that place, from my perspective, 
requires us to address both the economic kinds of questions we 
have been talking about today, but also it requires us to think 
and speak more frankly about culture and to sort of get people 
to understand and to realize that, you know, it certainly helps 
our kids if we can figure out ways to forge strong and civil 
marriages. And I say this as someone who was raised by a single 
mom, as well, and my mom did I think a great job with me and my 
sister. But there was a profound longing in my heart growing 
up, you know, not having a father in the household. And what I 
am just hoping we can figure out is sort of ways, you know, 
economically, civically, and culturally to increase the share 
of kids who are raised by two loving married parents, and where 
we do not have these huge class divides when it comes to family 
structure in America.
    Vice Chairman Beyer. Thank you very much.
    Congresswoman Herrera Beutler, the floor is yours.
    Representative Herrera Beutler. Sweet. This is so 
fascinating. Actually, it is funny to me. These are some of the 
things that I think really drive, or should drive most if not 
all of the policy that we do here. And yet, you know, the 
chances that we will have the ability to impact all the 
different committees--I think about our Budget Committee, Ways 
and Means, everything that we are working on, certainly health 
care, all of this plays into it.
    And I think, Dr. Wilcox, your point, it is funny that you 
just said, you were talking about some of the solutions are not 
a panacea, and I had written down that marriage is not a 
panacea, and I am a big promoter of marriage. I do not know if 
I should say, I do believe it is the reason that, you know, my 
kids are able to be happy and healthy is because of the effort 
my husband and I put into it, right? And we have that chance. I 
did not end up in a domestic violence situation, or so on, 
right. Thank you, Daniel.
    But I still keep coming back to, I think we have to help 
people answer who am I? And why am I here? Because they are not 
going to be able to bring that into a marriage situation and 
not be a healthy marriage. Or they will be able to answer it in 
whatever circumstance they are in, and then provide for their 
kids. Which I think are both examples of that.
    That does not mean that the ideal, which I think is what 
you are talking about, is the ideal would be getting people 
into stable, committed, married relationships so that the kids 
have that stability. Because it is true, man. They get their 
security from what is going on in the home, and who is 
affecting the home. I am sorry that I have kind of pigeon holed 
everybody now in how I think about it.
    One of the things I wanted to ask about, you know, I think 
some of the policy recommendations I think are super strong. 
The earned income tax, let's see, you know, doubling the 
threshold, and certainly not penalize marriage, strengthening 
CT&E, because I think that goes across the board. I think that 
is one of the areas where we have sold this whole generation 
down the river and into debt because we have not talked about 
what do you want to do? Who are you? What do you like? How do 
we help you get there? And some of that is CT&E.
    I have certainly seen it in my brother's life. An expansion 
of the child tax credit. It seems like those things you all 
agreed on. Am I reading that right? All of you agreed on that?
    [Nods in the affirmative.]
    And then--sorry, I took a lot of notes. In terms--oh, this 
is for Dr. Ray. Equitable opportunity for jobs. You know, that 
is something that I have been focusing on in my region, my 
district. That is, how we get more people access to jobs, 
right, because that is the first step to being able to provide 
for yourself, your family, what that looks like.
    How do we help get equal opportunity for jobs? And I think 
in particular you were talking about African-American men, but 
what does that look like?
    Dr. Ray. Yeah, I think--I think one of the biggest--I think 
there are a couple of main things. First, I think that there 
has to be more vocational and technical training. So if you 
look at what is happening going from high school to college is 
that in a lot of states--Maryland is one of these--where if you 
are going to say come to the University of Maryland, typically 
your junior year of high school you start going to community 
college so that you can try to offset some of the costs----
    Representative Herrera Beutler. It is a Running Start 
program.
    Dr. Ray. Exactly. The problem, though, is that those 
programs are typically for very high achievers in high schools. 
When we go back in previous decades, community colleges were 
for people who were going to end up getting a trade, who were 
going to end up with a vocational/technical associates degree. 
Those individuals are being placed out of that queue. So I 
think that is the first thing. So there is a training gap.
    Then the second thing, obviously, is that with the training 
gap there is a job gap. And I mentioned cities in particular 
because when we talk about, Black American families, a lot of 
them are located in urban cities. And we have to be very clear 
that historically, Black families actually move to those cities 
looking for jobs that for the most part have disappeared.
    I mean, I think Gary, Indiana, which is a city we do not 
talk about often, but it is a city that was thriving in the 
1960s and 1970s, and it is simply obsolete with an economic 
hub. Detroit? Baltimore? The same way. So we want to get to a 
point--and kind of what we have kind of been talking around, is 
that, as much as some people want this to change, men still 
intrinsically tie their masculinity to work. And what that 
means is, is when they do not see value in work, or when they 
are not getting valued at work, it then impacts other aspects 
of their lives.
    And so we have to do something about the economic hubs in 
our existing--in cities. I mean, they are simply depleted. And 
now what is happening is that now people are flocking to the 
suburbs, because over the past 20, 30 years that is where the 
jobs were, and we have not even got to rural America yet. Like 
when I was talking about Kosciusko County. No matter whether we 
are talking about urban, suburban, or rural areas, for 
searching workers they are simply priced out of the market. And 
that has a lot to do with education, but it also has a lot to 
do with the jobs that are available.
    The jobs that are available, they are often times working 
two and three of them to try to put food on the table. They do 
not have good benefits. And like there was a man in Kosciusko 
County who we interviewed. He said something very profound.
    He used the word ``role.'' He said, ``My wife and I 
switched roles.'' I find it so interesting when people use that 
terminology, and we make the assumption that people do not 
necessarily think about it that way, and they do. He said: ``My 
wife and I switched roles, and I am primarily at home with the 
kids. It does not make sense for me to work right now, because 
if I do, we still will not make enough for childcare. So 
instead it is better for me to stay at home, us have one 
income, and then we get some sort of government assistance.''
    What I find interesting about that, he wants to work. He 
wants to be out.
    Representative Herrera Beutler. This I see over and over 
again with regard to the child care piece. One of the reasons, 
I would say, I have a few bipartisan, bicameral pieces of 
legislation with regard to child care and helping to pay for 
child care, or helping offset some of the things more middle 
class families, some with lower income, right.
    One of the things the child care providers, especially in 
areas like mine where we have a child care desert in Washington 
State, they do not have the facilities and the provider, right? 
And what those providers that are there have told me, the why, 
different ones, that the minimum wage, the blanket minimum wage 
requirement, the $15 an hour Washington State, have actually 
cost them because they cannot keep providers, good child care 
providers, in those places because they move on, or they cannot 
afford it, the centers themselves.
    So talk about a conundrum we are running into, but I think 
artificially setting things, I think we have got to figure out 
how to do this in a way--it gets deep quickly, but I saw that 
on your recommendations and I thought some of those, what I am 
being told by child care providers and those who use the 
subsidies to make sure they are getting low-income people 
options for their kids that are quality, are telling me the 
opposite about the set standard minimum wage.
    I just thought that was interesting. I mean, I am just 
running with it.
    [Laughter.]
    Dr. Stevenson. So I think that is a really important point, 
and I will just put out the mathematical fact. If we want child 
care providers to be trained in early childhood education, they 
are going to have to be paid a wage that is above the minimum 
wage. And how can a minimum wage worker afford to put their kid 
in a child care center where the child care workers are making 
more than they are, without government support and government 
subsidy?
    That is the fundamental problem. And the solution is not to 
have a whole bunch of low-paid child care workers, but it is to 
figure out how we invest in our children more.
    Representative Herrera Beutler. I think that is it, right 
there. I think you are right. We say we invest in the kids, but 
we really do not.
    Dr. Stevenson. And there is not--I mean, there are a slew 
of studies that show the return to taxpayers of spending money 
on that. You know, every year with my graduate students we put 
on big events at the Ford School talking about the growing 
Federal deficit and debt. So I am well aware and versed on 
those issues.
    But there is no dollar that we could better spend than to 
invest more in early childhood education.
    Representative Herrera Beutler. Let me make sure, because I 
am going to yield it for good now.
    I think I would love to hear thoughts about the mental 
health piece. I know, as someone who does believe in marriage 
and its benefits, how do we help people see good marriages, and 
feel confident enough, or ready enough to get into one? Some of 
it are the symptoms we have talked about, but at the heart of 
it have you seen any data on those things?
    Dr. Wilcox. Well I think, as I said before, one of the 
encouraging pieces of news that we cannot lose sight of here is 
that we are seeing an increase in the share of kids who are 
being raised in stable marriages. When we look at the General 
Social Survey, we also see, too, that a clear majority of both 
women and men who are married today say that they are very 
happy in their marriages.
    So at least for the families that are being formed today, I 
think we are going to see kids being exposed in tiers about 
peers being exposed to some better things. And some of those 
things are related to points that Dr. Stevenson made about kind 
of we are seeing more men like your husband, for instance, who 
are----
    Representative Herrera Beutler. He is gonna kill me.
    [Laughter.]
    Dr. Wilcox [continuing]. Engaging on the home front. But it 
is important to recognize, even on that score, there are 
different models for how marriages are kind of doing that 
thing. We actually see, surprisingly, that the most progressive 
Americans, and the most conservative Americans--and maybe that 
would explain your husband's status in some part--are the ones 
most, like I say, they are very happy in their marriages.
    I think oftentimes some of the different models to how they 
kind of do it, but I think what is one common thread across 
those two different sort of ends of the spectrum is that they 
have in different ways pretty high expectations about what men 
are doing. And so among the conservative spouses it is mostly 
religious conservatives in people who are happily married on 
sort of one end of the spectrum, and on the other end it is 
more progressive folks who have more egalitarian commitments. 
But I think the shared thread there on both of those kinds of 
marriages is they have pretty high expectations for what the 
guy will be doing. Not necessarily when it comes to housework, 
or when it comes to their investment in the kids and in the 
marriage and the family. So that is sort of I think one thing 
to kind of be aware of and to sort of lift up.
    But I also think it is important to sort of, not that you 
all can do much about this, but to sort of recognize that the 
pop culture is pretty important here, probably more important 
than what happens actually in Washington. And so we really need 
more shows, you know, like ``The Middle'' and fewer movies like 
``The Marriage Story.'' Because, you know, a show like ``The 
Middle'' is I think very honest in its depictions of the 
challenges of family life and marriage. It is not sugar-coating 
anything. But ultimately it is pretty funny, and it is pretty--
you know, it is pretty uplifting. Whereas a movie like ``The 
Marriage Story'' I think presents a pretty kind of dim view of 
marriage, one that is actually not even very realistic anymore.
    So I think it is about trying to figure out ways to 
encourage our colleagues working in southern California to be 
not doing a rose-colored job when it comes to the pop culture, 
but an honest job and one that really does sort of show how 
good marriages, good families, are great for adults and kids.
    Representative Herrera Beutler. That is such a great point, 
considering what just happened with the Oscars, and the types 
of shows that got voted in, and the types of producers who were 
pulled in. I thought, how is that a cross section of American 
society?
    Ms. Hymowitz. I would just add one more thing in terms of 
trying to think about the mental health piece. I am not going 
to speak specifically about serious mental illness because that 
is not my--but I think that we need to be thinking more about 
the schools kids are going to.
    I think a school with a strong culture, a strong sense of 
purpose, and a strong sense of proper--you know, of appropriate 
behavior, and of kindness, of generosity, but also of 
discipline, can make a huge difference for kids who are maybe 
not going to find that so much at home.
    And we do have in New York City, and I know this is true 
elsewhere, we do have some charter schools, not all, that are 
doing that. And it is quite a remarkable thing to see. And the 
parents of course are deeply, deeply grateful.
    Representative Herrera Beutler. Thank you.
    Thank you.
    Vice Chairman Beyer. Dr. Stevenson.
    Dr. Stevenson. Thank you. I was just going to actually add 
something that will tie in Dr. Wilcox's sort of life plan. I 
think that people enjoy their lives, or have better mental 
health when they understand the progress narrative of their 
life, when they know what they are aiming for, they are working 
toward something and there is a path they are going down.
    So Dr. Wilcox noted that highly educated people follow this 
path of education, then work, then marriage, then kids. And 
that is because for many highly educated people there is a 
narrative that they are working toward something. They know 
what the job promotion is they are looking for. They know the 
career path, and they know where they want to get to.
    I think that that whole path is missing for a lot of people 
with lower incomes and less education. And that idea of not 
knowing their path, not knowing their progress narrative is 
leaving them unmoored emotionally and also sort of unable to 
follow the path that Dr. Wilcox is suggesting.
    And I think that is one of the reasons I have skepticism of 
just telling them this is the right path to go down, but 
perhaps helping them form their own plan for how they are going 
to execute their life. What are their ambitions going to be? 
What are they going to achieve? From school, as Ms. Hymowitz 
suggested, starting them understanding the path they need to 
walk down. And then I think that they will naturally fall into 
the path that Dr. Wilcox suggests is the best.
    Vice Chairman Beyer. I want to thank all of you for being 
here today, and for letting us go beyond our five minutes. So 
we want you to come back sometime when there are no votes, and 
you will have a whole panel up here.
    I was particularly struck by both Dr. Wilcox and Dr. Ray's 
comments about being raised by single mothers without the dad. 
And, Dr. Wilcox, your yearning for that missing father. I 
realized that I had a dad that was home at four o'clock every 
afternoon, was around every weekend working on the neighbors' 
cars, and very present. And I realized my three closest friends 
all had basically absent fathers. And it was not until I was 18 
that I realized they did not really like me, they just wanted 
to hang around my father.
    [Laughter.]
    That was the really important part. So I want to thank all 
of you for being here today. Thanks to the witnesses. If any of 
the members want to submit additional questions for the record, 
the hearing record remains open for three days. And, without 
objection, this hearing is adjourned.
    [Whereupon, at 4:08 p.m., Tuesday, February 25, 2020, the 
hearing of the U.S. Joint Economic Committee in the above-
entitled matter was adjourned.]

                       SUBMISSIONS FOR THE RECORD

Prepared Statement of Hon. Mike Lee, Chairman, Joint Economic Committee
    Good afternoon, and thank you for joining us for this hearing of 
the Joint Economic Committee. Today's hearing will focus on the most 
important institution in our society--the family.
    As most members of this committee are aware, the American family is 
in a precarious state: although the vast majority of Americans still 
desire to marry, the marriage rate has declined for decades and stable 
family life has disappeared for millions of American children.
    The trends in family life are concerning: whereas just 5 percent of 
children were born to unmarried mothers in 1960, 40 percent of children 
are born to unmarried mothers today. Meanwhile, 30 percent of children 
today live without one or both parents, twice the proportion of 
children that lived without one or both parents 50 years ago.
    Over the past few years, the Social Capital Project has worked to 
document these trends in American ``associational life,'' the web of 
social relationships through which we pursue joint endeavors--our 
families, communities, workplaces, and religious congregations. The 
Project recognizes the family as a crucial source of these 
relationships, which is why our policy agenda aims to make it more 
affordable to raise a family and to increase the number of children 
raised by happily married parents.
    But although the Project has sometimes emphasized the social value 
stable family life provides, the declines in family stability have 
economic, physical, and emotional consequences as well. For a variety 
of reasons, children raised in single-parent families are far more 
likely to experience child poverty, less likely to graduate from high 
school or attend college, and less likely to be connected to the labor 
force as adults.
    In addition, children raised in single-parent families are less 
likely to have positive relationships with their parents, and are far 
more likely to experience physical, emotional, and sexual abuse.
    Conversely, children raised by two married parents in a healthy 
relationship are likely to be happier, healthier, and better prepared 
for life.
    The positive outcomes associated with stable home life are outcomes 
Americans want for all children, no matter their background. But 
tragically, the decline of the family is concentrated among some 
vulnerable groups, including minorities and low income families.
    For example, over two-thirds of births to Black mothers and over 
half of births to Hispanic mothers occur outside marriage, and minority 
women are much more likely to see their marriages end in divorce. 
Meanwhile, two-thirds of births among non-college educated women occur 
outside marriage, and non-college educated adults are also less likely 
to stay married.
    Although these trends are most stark for disadvantaged groups, they 
affect us all.
    What factors have driven these declines in family stability? The 
breakdown of the family is at least partly caused by cultural changes 
that have reverberated throughout our society--including changing 
romantic norms that led to greater relationship ambiguity, a culture of 
individualism that too often emphasizes the desires of individuals over 
the well-being of the family, and the retreat from religion, which is 
one of the strongest supports of marriage and family life.
    But while cultural factors may have contributed to declining 
marriage rates over time, the Federal Government has also played an 
active role. For example, our government penalizes marriage through the 
welfare system and tax code.
    Our Federal Government should not be in the business of punishing 
marriage. Instead, it should support policies that strengthen marriage 
and thus improve the likelihood of family stability for children. State 
and local leaders should also seek ways to strengthen marriage and 
increase family stability.
    Some of us have been working toward that goal: today we will hear 
from expert panelists, who will speak to the state of the American 
family and address various policy solutions we might pursue. I look 
forward to hearing their testimonies on this critical topic.
    I now recognize Vice Chair Beyer for opening remarks.
                               __________
Prepared Statement of Hon. Donald Beyer Jr., Vice Chair, Joint Economic 
                               Committee
    Thank you Chairman Lee.
    This is my first hearing as Vice Chair of the Joint Economic 
Committee. I feel privileged to be a member of the committee and to 
have the opportunity to work on issues that are of real importance to 
most Americans.
    I would like to thank former Vice Chair Carolyn Maloney for her 
leadership. And I'd like to thank Chairman Lee for his hard work, 
commitment and collegiality.
    Today, we are focused on family stability and the connection to the 
well-being of American children.
    We all share a commitment to the same goal--delivering the best 
outcomes for children, families and the economy.
    The question is--how do we get there?
                    teen pregnancy is at record low
    I want to start with good news. Teen pregnancy, which leads to poor 
health and economic outcomes for mothers and their children, is at an 
all-time low.
    Between 1991 and 2015, the teen birth rate dropped by almost two-
thirds, thanks in part to the Affordable Care Act.
    This is an issue I have worked on for many years, and I think we 
can all feel good about the substantial progress that's been made.
  declining marriage rates largely are a result of economic challenges
    Part of the impetus for today's hearing may be that marriage rates 
have declined in the past several decades. A good portion of that 
decline is the result of economic challenges.
    If you're struggling financially, your wages haven't gone up or 
you've lost your job--getting married is neither feasible nor 
practical.
    Perhaps less known is that divorce rates have also been falling. 
Since its peak in 1980, the divorce rate has fallen to a 40-year low.
      americans want to get their economic footing before marriage
    Young Americans today want to get their economic footing before 
they get married. They correctly understand that they must get an 
education or training to achieve financial success. They want to get a 
firm foothold on a career and earn a degree of financial stability.
    If they wait longer to get married, it's not because they are anti-
marriage. It's because they are pragmatic. They are pro-success.
    They are adapting to current conditions--not wishing for a return 
to the past.
    And the reality is that the traditional male-breadwinner model of 
the past failed to work for so many--as wages stagnated and the costs 
of housing and college soared higher and higher.
     traditional family structures are not the only path to success
    My friends on the other side sometimes talk about the so-called 
break down of family and the increase in households headed by single 
mothers.
    It's true, that as people delay marriage, there are more babies 
born to unmarried parents. That holds across demographic groups and 
race. And it's true in the United States and elsewhere.
    But what the research also shows is that children raised by loving 
adults do well. There are lots of loving and supporting arrangements.
    It's also true that fathers today spend significantly more time 
caring for their children than in previous generations--in fact, three 
times as much as in 1965.
    On average, the households with the highest incomes are married 
with both spouses working. But not every household is going to look 
like that and the government should be working to support children in 
all types of families--especially those with access to only limited 
financial resources.
              real challenges facing families are economic
    The real challenges facing families--whether living in small rural 
communities or large metro areas--are economic.
    Forty-four percent of workers earn just $18,000. And many are 
working two and three jobs.
    Millions of American families are one accident, one car breakdown, 
one trip to the emergency room from financial crisis or ruin.
    When people are living paycheck to paycheck, when wages are 
basically where they were 40 years ago, is it any wonder adults 
postpone marriage?
                  we should invest in proven programs
    Step number one, then, is to do more to help people build their 
financial base.
    Increase the minimum wage. Expand the EITC. Provide affordable, 
quality child care. Protect nutritional supports. Ensure workers have 
real bargaining power--to negotiate wage increases, predictable hours 
and better working conditions.
    Children whose families benefit from expanded EITC are more likely 
to graduate high school and enroll in college.
    Similarly, access to SNAP leads to better educational and health 
outcomes.
    If we care about child outcomes, we should invest in programs that 
drive those outcomes higher.
          we need ``family friendly'' policies like paid leave
    Making paid family leave a reality--for women and men--would be 
another important step.
    I'm pleased and encouraged that Federal workers will be able to 
take 12 weeks paid leave to care for a newborn or adopted child.
    We should expand that same policy to workers in the private sector.
     government policies need to catch up to the way americans live
    Finally, part of the challenge for families is that our government 
hasn't kept pace with the way people are living their lives.
    For example, the share of multigenerational households is growing, 
but our policies haven't changed.
    Grandparents and aunts and uncles are taking care of kids--they're 
doing a great job. But, often they can't access family leave or food 
assistance or other important supports that would help.
    We need to catch up.
    I thank all of the witnesses for being here today, and I look 
forward to your testimony.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre></body></html>
